          Office of Inspector General




September 26, 2005

MEGAN J. BRENNAN
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT:       Audit Report – Surface Transportation – Bulk Mail Center Highway
               Transportation Routes – Northeast Area (Report Number NL-AR-05-013)

This report presents results from our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL009). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Northeast Area.

The Postal Service could save about $2.5 million over the term of existing Northeast
Area bulk mail highway contracts by canceling, not renewing, or modifying 41 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. We recommended the vice president,
Northeast Area Operations: (1) verify the actual cancellation, modification, or
substitution of the 26 trips identified by Postal Service managers during our audit; and
(2) verify the actual cancellation, modification, or substitution of the 15 trips with which
Postal Service officials agreed.

Management agreed they would terminate, modify, or substitute for 37 trips, but cited
operational requirements and changed their position regarding four trips they previously
agreed to eliminate. They explained that the estimated cost savings would only be a
small offset against the need to maintain service standards. We understand the
transportation network is dynamic and requirements continually change. We continue
to believe the four proposals with which management now disagrees provide the
potential for elimination without jeopardizing service or operational flexibility.
Management agreed to provide documentation as to why they now believe the four trips
are needed, and we have agreed to review that documentation and resolve any
differences as part of our normal process for closing significant recommendations.
Management’s comments and our evaluation of these comments are included in this
report.
The Office of Inspector (OIG) considers recommendations 1 and 2 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                        NL-AR-05-013
 Transportation Routes – Northeast Area


                                        INTRODUCTION
 Background                    Bulk mail includes magazines, advertising, and
                               merchandise shipped by major mailers like publishers,
                               catalog companies, or online retail companies. It is
                               processed by a system of 21 bulk mail centers and other
                               facilities nationwide. The Postal Service spends more than
                               $500 million annually on contracts to transport bulk mail
                               over highway networks. Contracted routes are controlled by
                               individual Postal Service areas.




   Highway transportation
  contractor departing the
 Springfield, Massachusetts,
      Bulk Mail Center
     September 14, 2004.




                               This report focuses on the routes controlled by the
                               Northeast Area and responds to a request from the vice
                               president, Network Operations Management.

 Objectives, Scope,            The objectives of our audit were to evaluate the
 and Methodology               effectiveness of scheduled bulk mail center highway
                               transportation routes and identify opportunities for cost
                               savings.

                               Using Postal Service computer-generated data, we
                               identified 833 trips operated under 91 Northeast Area
                               contracts that had at least one bulk mail center service
                               point. In preparation for our work, we provided area officials
                               and Postal Service managers with the list of Northeast Area
                               contracts we intended to audit. During our work, we
                               interviewed officials at headquarters and in the Northeast




                                                    1
Surface Transportation – Bulk Mail Center Highway                        NL-AR-05-013
 Transportation Routes – Northeast Area


                               Area; reviewed relevant Postal Service policies and
                               procedures; visited the area’s bulk mail center; interviewed
                               managers and employees; and observed and photographed
                               operations. We consulted with financial analysts, computer
                               analysts, and other subject matter experts; evaluated mail
                               volume and the type of mail carried; considered service
                               standards; and analyzed all 833 trips.

                               We conducted work associated with this report from
                               August 2004 through September 2005, in accordance with
                               generally accepted government auditing standards, and
                               included such tests of internal controls as were considered
                               necessary under the circumstances. We discussed our
                               observations and conclusions with appropriate management
                               officials and included their comments where appropriate.

                               We examined computer data in management’s
                               Transportation Contract Support System and Transportation
                               Information Management Evaluation System. We did not
                               audit or comprehensively validate the data; however, we
                               noted several control weaknesses that constrained our
                               work. For example, the Transportation Information
                               Management Evaluation System had missing records and
                               inaccurate trailer load volumes.

 Prior Audit Coverage          Since September 2002, the Office of Inspector General
                               (OIG) has worked with the Postal Service to reduce surface
                               transportation. As a result, we have issued 18 audit reports
                               that identified potential savings exceeding $76.8 million over
                               the life of eliminated or reduced transportation contracts.
                               For more detailed information about these audits, see
                               Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                            NL-AR-05-013
 Transportation Routes – Northeast Area


                                       AUDIT RESULTS

 Contracted Bulk Mail          The Postal Service could save about $2.5 million over the
 Center Highway Trips          term of existing Northeast Area bulk mail highway contracts
                               by canceling, not renewing, or modifying 41 trips. The
                               Postal Service could eliminate or modify the trips without
                               negatively affecting service because trip mail volume was
                               low and mail could be consolidated on other trips. As
                               indicated below, 61 percent of affected trips expired on
                               June 30, 2005. The other 39 percent have 1 to 3 years
                               remaining.
                                        PROPOSED NONRENEWALS AND CANCELLATIONS
                                          TRIP             AFFECTED      NUMBER      ESTIMATED
                                        CATEGORY             TRIPS       OF TRIPS     SAVINGS

                                  Contracts that expired
                                  on June 30, 2005          61 percent      25        $2,046,396

                                  Contracts expiring in
                                  1 to 3 years              39 percent      16        $ 444,737
                                  ‘
                                  All terminated trips     100 percent      41        $2,491,133

                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive cost
                               cutting efforts—such as their breakthrough productivity
                               initiative—transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service has
                               attained savings by not renewing unnecessary trips that
                               expired June 30, 2005, and can achieve additional savings
                               through further service reductions by canceling unnecessary
                               trips that are currently contracted to continue for one to
                               three years. The savings identified included savings from
                               nonrenewable trips, plus savings from trip cancellations net
                               of cancellation fees totaling approximately $88,148.

 Cooperative Effort and        As a result of our continuing efforts to partner with and bring
 Rapid Implementation          value to the Postal Service, we had ongoing communication
                               with Northeast Area officials throughout our audit. We
                               provided the Northeast Area officials with a list of our
                               specific trip proposals and the officials reviewed each
                               proposal in conjunction with their own assessment of
                               area-wide network requirements. After the area’s review,
                               we discussed our proposals and area operational needs
                               with area officials and made appropriate adjustments. As a
                               result of our cooperative effort, the area ultimately agreed



                                                    3
Surface Transportation – Bulk Mail Center Highway                              NL-AR-05-013
 Transportation Routes – Northeast Area


                               with all the proposals outlined in Appendix B and most of
                               the proposals outlined in Appendix C.
                                            PROPOSED TRIP CANCELLATIONS AND MODIFICATIONS

                                         CANCELLATION             NUMBER                 ESTIMATED
                                           CATEGORY               OF TRIPS   APPENDIX     SAVINGS

                                 Postal Service identified trip
                                 cancellations or
                                 modifications during the            26         B       $2,076,679
                                 audit

                                 Proposals with which area
                                 officials agreed                    15         C       $   414,454

                                 Total                               41                 $ 2,491,133

                               During our audit, the Northeast Area made significant
                               changes to their network and identified substantial
                               opportunities for cost savings as reflected in Appendix B.
                               We recognize the proactive actions taken by the Northeast
                               Area and appreciate their cooperation, insight, and trip
                               modifications. Further, we applaud the area’s quick
                               responsiveness in implementing Postal Service-identified
                               and OIG-recommended trip proposals.

 Recommendation                We recommend the vice president, Northeast Area
                               Operations:

                               1. Verify the actual cancellation, modification, or
                                  substitution of the 26 trips management identified during
                                  our audit.

 Management’s                  Management agreed with our recommendation and stated
 Comments                      all trip reductions had already been implemented.
                               Management noted that actual cost savings may differ from
                               estimated cost savings due to negotiations and fixed costs.
                               Management’s comments, in their entirety, are included in
                               Appendix D of this report.

 Recommendation                We recommend the vice president, Northeast Area
                               Operations:

                               2. Verify the actual cancellation, modification, or
                                  substitution of the 15 trips with which Postal Service
                                  managers agreed and provide the dates action was
                                  taken.




                                                     4
Surface Transportation – Bulk Mail Center Highway                      NL-AR-05-013
 Transportation Routes – Northeast Area



 Management’s                  Management concurred with the intent of our
 Comments                      recommendation. However, management cited operational
                               requirements and modified their position on four trips they
                               previously agreed to eliminate. They explained that the
                               estimated cost savings would only be a small offset against
                               the need to maintain service standards.

 Evaluation of                 Management’s comments are generally responsive to our
 Management’s                  recommendations. We understand the transportation
 Comments                      network is dynamic and requirements continually change.
                               We continue to believe the four proposals with which
                               management now disagrees provide the potential for
                               elimination without jeopardizing service or operational
                               flexibility. Management has agreed to provide
                               documentation as to why they now believe the four trips are
                               needed, and we have agreed to review that documentation
                               and resolve any differences as part of our normal process
                               for closing significant recommendations.




                                                    5
      Surface Transportation – Bulk Mail Center Highway                                                                      NL-AR-05-013
       Transportation Routes – Northeast Area


                                                APPENDIX A. PRIOR AUDIT COVERAGE

                                                                                      Number of
                                                                                        Trips                       Trips with Trips with
                                                                         Date Final Identified for   Potential        which      which      Trips
                                                                          Report    Elimination or    Savings      Management Management Identified by
                        Report Name                         Report Number Issued     Modification    Identified      Agreed    Disagreed Management

Highway Network Scheduling - Pacific Area                   TD-AR-02-003 9/24/2002          158       $4,500,417        76              34       48
Highway Network Scheduling - Northeast Area                 TD-AR-03-002 11/25/2002          18          776,992        10               8        0
Highway Network Scheduling - Capital Metro Area             TD-AR-03-007 3/28/2003           34        1,144,218        20              14        0
Highway Network Scheduling - New York Metro Area            TD-AR-03-008 3/31/2003           32          470,123        12              20        0
Highway Network Scheduling - Southwest Area                 TD-AR-03-010 7/11/2003          249        5,989,082       148             101        0
Highway Network Scheduling - Western Area                   TD-AR-03-013 9/23/2003           70        2,721,530        30              40        0
Highway Network Scheduling - Southeast Area                 TD-AR-03-014 9/26/2003          101       11,352,881        23              24       54
Highway Network Scheduling - Eastern Area                   TD-AR-03-015 9/30/2003          181       10,577,367       128              53        0
Highway Network Scheduling - Great Lakes Area               NL-AR-04-003 3/29/2004           72        5,352,877        48              22        2
BMC Transportation Routes - Great Lakes Area                NL-AR-04-004 9/29/2004           96        7,660,533        49               7       40
BMC Transportation Routes - Eastern Area                    NL-AR-05-003 3/17/2005           35        4,791,570        29               6        0
Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004 3/18/2005            0        1,046,240         0               0        0
BMC Transportation Routes - Southeast Area                  NL-AR-05-005 3/18/2005           52        6,563,582        52               0        0
BMC Transportation Routes - New York Metro                  NL-AR-05-007 6/9/2005            16        1,499,371        16               0        0
BMC Transportation Routes - Southwest Area                  NL-AR-05-008 8/3/2005            79        7,175,912        76               0        3
BMC Transportation Routes - Capital Metro Area              NL-AR-05-009 9/2/2005            10          803,060        10               0        0
Intermodal Rail and Highway Transportation Between the
 Pacific and Southeast Areas                                NL-AR-05-011       9/19/2005      0        1,261,308         0              0         0
BMC Transportation Routes – Pacific Area                    NL-AR-05-012       9/21/2005     22        3,123,562        10              2        10

                            Totals                               18                        1,225     $76,810,625       737             331      157



      BMC − Bulk Mail Center

      NOTE: We need to add Southwest Report Number and Issue Date when SW Final issued this week.



                                                                           6
Surface Transportation – Bulk Mail Center Highway                                                             NL-AR-05-013
 Transportation Routes – Northeast Area



                                                                   APPENDIX B

                                  TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                DURING AUDIT WORK

  Effective                Highway
   Date of     Ending      Contract                                                   Annual     Estimated
    Last       Date of      Route        Trip       Recommen-          Origin to      Budget      Contract   Indemnity       Estimated
  Change       Contract    Number       Number        dation          Destination      Cost        Cost         Fees          Savings
                                                                       Springfield
                                                                      BMC, MA to
                                                      Cancel
 4/20/2004    6/30/2006     010AM         1-12                        Philadelphia,   $129,119   $516,476       $0           $516,476
                                                      contract
                                                                       PA Amtrak
                                                                    ramp and return
                                                                     Boston P&DC,
                                                    Change of
                                        Contract-                        MA to
                                                    frequency,
 4/30/2004    6/30/2007      02190        level                        Springfield    $ 6,408     $12,816     $2,136          $10,680
                                                     mileage,
                                         change                      BMC, MA and
                                                       stops
                                                                          return
                                                                    Brockton P&DC,
                                                                          MA to
                                                     Eliminate
 7/10/2004    6/30/2007      02390      801-802                        Springfield    $55,158    $110,316     $18,386         $91,930
                                                     round trip
                                                                     BMC, MA and
                                                                          return
                                                      Reduce        So. CT P&DC to
                                        Contract-
                                                      trailers,        Springfield
 1/27/2004    6/30/2005      06490        level                                       $188,872   $755,489       $0           $755,489
                                                     miles, and      BMC, MA and
                                         change
                                                       hours              return
                                                                    So. CT P&DC to
                                        607-610,
                                                     Eliminate         Springfield
 1/27/2004    6/30/2005      06490      613-614,                                      $153,823   $615,293       $0           $615,293
                                                     round trip     PMPC, MA and
                                        624, 627
                                                                          return
                                                                     Buffalo P&DC,
                                                     Eliminate
 1/16/2004    6/30/2005      14021         803                      NY to Syracuse    $10,459     $41,834       $0            $41,834
                                                    Sunday trips
                                                                       P&DC, NY




                                                                       7
Surface Transportation – Bulk Mail Center Highway                                                                            NL-AR-05-013
 Transportation Routes – Northeast Area


  Effective                  Highway
   Date of     Ending        Contract                                                       Annual         Estimated
    Last       Date of        Route        Trip       Recommen-          Origin to          Budget          Contract       Indemnity         Estimated
  Change       Contract      Number       Number        dation          Destination          Cost            Cost             Fees            Savings
                                                                         Syracuse
                                                       Eliminate       P&DC, NY to
 1/16/2004     6/30/2005      14021          804                                            $11,244         $44,977             $0            $44,977
                                                      Sunday trips     Buffalo P&DC,
                                                                             NY
  TOTALS                                     26                                              $555,083       $2,097,201         $20,522       $2,076,679

All trips presented in this appendix were initiated by the Postal Service after the Northeast Area was notified of our audit in June 2004.

We could not apply the OIG calculation methodology to several contracts above (010AM, 02190, 02390, and 06490) because of the type and
number of changes involved. As a result, we obtained the annual budget cost from contracting service change documents furnished by the
Northeast Area.

BMC − Bulk Mail Center
P&DC − Processing and Distribution Center
PMPC − Priority Mail Processing Center




                                                                           8
Surface Transportation – Bulk Mail Center Highway                                                            NL-AR-05-013
 Transportation Routes – Northeast Area



                                                 APPENDIX C
                               TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                      POSTAL SERVICE MANAGERS AGREED
  Effective                Highway
   Date of     Ending      Contract                                                   Annual    Estimated
    Last       Date of      Route        Trip       Recommen-          Origin to      Budget     Contract   Indemnity       Estimated
  Change       Contract    Number       Number        dation          Destination      Cost       Cost         Fees          Savings
                                                      Eliminate
                                                                      Springfield
                                                    Thanksgiving,
                                                                      BMC, MA to
 6/11/2004     6/30/2007     01095         805        Memorial                        $1,001     $2,002        $0            $2,002
                                                                      Plattsburgh
                                                      Day, and
                                                                      P&DC, MA
                                                       July 4
                                                      Eliminate
                                                                      Plattsburgh
                                                    Thanksgiving,
                                                                     P&DC, MA to
 6/11/2004     6/30/2007     01095         806        Memorial                         $999      $1,998        $0            $1,998
                                                                      Springfield
                                                      Day, and
                                                                       BMC, MA
                                                       July 4
                                                                        Springfield
                                                      Eliminate
                                                                       BMC, MA to
 12/27/2003    6/30/2007     01590         806        stops at                        $3,740     $7,480      $1,247          $6,234*
                                                                      Central Mass
                                                       P&DC
                                                                          P&DC
                                                                        Middlesex
                                                                      Essex P&DC,
 5/15/2004     6/30/2007     01891         817      Eliminate trip        MA to       $40,891    $81,781     $13,630         $68,151
                                                                        Springfield
                                                                        BMC, MA
                                                                        Springfield
                                                                       BMC, MA to
 5/15/2004     6/30/2007     01891         818      Eliminate trip      Middlesex     $40,126    $80,253     $13,375         $66,877
                                                                      Essex P&DC,
                                                                            MA
                                                                        Middlesex
                                                                      Essex P&DC,
 5/15/2004     6/30/2007     01891         809      Eliminate trip                    $41,459    $82,918     $13,820        $69,099*
                                                                     MA to Spring-
                                                                     field BMC, MA



                                                                       9
Surface Transportation – Bulk Mail Center Highway                                                               NL-AR-05-013
 Transportation Routes – Northeast Area


  Effective                Highway
   Date of     Ending      Contract                                                     Annual     Estimated
    Last       Date of      Route        Trip       Recommen-           Origin to       Budget      Contract   Indemnity       Estimated
  Change       Contract    Number       Number        dation           Destination       Cost        Cost         Fees          Savings
                                                                        Springfield
                                                                       BMC, MA to
 5/15/2004     6/30/2007     01891         810      Eliminate trip      Middlesex      $33,231      $66,461     $11,077         $55,384
                                                                      Essex P&DC,
                                                                           MA
                                                                         Brockton
                                                    Eliminate trip    P&DC, MA to
 7/10/2004     6/30/2007     02390         817                                          $6,560      $13,119     $2,187         $10,933*
                                                                        Springfield
                                                                        BMC, MA
                                                                        Springfield
                                                                       BMC, MA to
 7/10/2004     6/30/2007     02390         818                                          $6,560      $13,119     $2,187         $10,933*
                                                    Eliminate trip       Brockton
                                                                       P&DC, MA
                                                                         Taunton
                                                                      (Chadwicks),
                                                     Eliminate
  1/1/2004     6/30/2007     028U0          1                             MA to         $6,705      $13,409     $2,235          $11,174
                                                    Sunday trips
                                                                        Springfield
                                                                        BMC, MA
                                                                        Springfield
                                                                       BMC, MA to
                                                     Eliminate
  1/1/2004     6/30/2007     028U0          2                            Taunton        $6,771      $13,542     $2,257          $11,285
                                                    Sunday trips
                                                                      (Chadwicks),
                                                                           MA
                                                                     Manchester, NH
                                                      Eliminate
 1/25/2004     6/30/2005     03090         803                        to Springfield    $9,041      $36,163       $0            $36,163
                                                    Saturday trips
                                                                        BMC, MA
                                                                        Springfield
                                                      Eliminate
 1/25/2004     6/30/2005     03090         804                         BMC, MA to       $9,041      $36,163       $0            $36,163
                                                    Saturday trips
                                                                     Manchester, NH
                                                                     Buffalo P&DC,
 4/17/2004     6/30/2007     14042         23       Eliminate trip   NY to Sanborn,     $8,417      $16,835     $2,806          $14,029
                                                                            NY
                                                                     Sanborn, NY to
 4/17/2004     6/30/2007     14042         24       Eliminate trip   Buffalo P&DC,      $8,417      $16,835     $2,806          $14,029
                                                                            NY
  TOTALS                                   15                                          $222,958*   $482,080*   $67,626*        $414,454


                                                                       10
Surface Transportation – Bulk Mail Center Highway                                                                    NL-AR-05-013
 Transportation Routes – Northeast Area



We could not apply the OIG calculation methodology to 01590 above because of the type of change involved. As a result, we obtained the annual
budget cost from contracting service change documents furnished by the Northeast Area.

BMC − Bulk Mail Center
P&DC − Processing and Distribution Center

* Minor rounding differences




                                                                     11
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-013
 Transportation Routes – Northeast Area



                        APPENDIX D. MANAGEMENT’S COMMENTS




                                                    12
